     ADVISORY REPORT

    COSTS CLAIMED BY THE
    STATE OF TEXAS, PARKS
  AND WILDLIFE DEPARTMENT,
  UNDER FEDERAL AID GRANTS
    FROM THE U.S. FISH AND
      WILDLIFE SERVICE
    FROM SEPTEMBER 1, 1995
   THROUGH AUGUST 31, 1997




MARCH 2003    Report No. 2003-E-0019
                                                                          X-GR-FWS-0037-2003


                United States Department of the Interior
                                   OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240




                                                                                   March 3, 2003


                                ADVISORY REPORT
Memorandum

To:        Director, U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Texas Parks and Wildlife
           Department, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
           September 1, 1995 through August 31, 1997 (No. 2003-E-0019)

                                       Introduction
       This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the State of Texas Parks and Wildlife Department
(Department) under Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for the
period September 1, 1995 through August 31, 1997.

Background and Scope

       The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts), authorize the FWS to
provide Federal assistance grants to the states to enhance their sport fish and wildlife programs.
The Acts provide for the FWS to reimburse the states up to 75 percent of all eligible costs
incurred under the grants. Additionally, the Acts specify that state hunting and fishing license
revenues cannot to be used for any purpose other than the administration of the state’s fish and
game agencies. In addition, FWS also provides grants to the states under the Clean Vessel Act
and the Endangered Species Act.

        In March 1999, another audit agency prepared a draft report on its review of FWS
Federal Aid program grants to the State of Texas for fiscal years 1996 and 1997. The scope of
its audit work, as stated in the announcement letter to the Department, was to evaluate (1) the
adequacy of the Department’s accounting system and related internal controls to determine if the
system can be relied upon to accurately accumulate and report the actual costs charged to the


                                                1
grants; (2) the accuracy and eligibility of the direct and indirect costs claimed by the Department
under the Federal Aid grants; (3) the adequacy and reliability of the Department’s hunting and
fishing license fees collection and disbursement processes; and (4) the adequacy of the
Department’s purchasing system and related internal controls. The audit was also to include an
analysis of other issues considered to be sensitive and/or significant to the FWS. The audit work
covered claims totaling $97.8 million on FWS grants that were open during the Department’s
fiscal years ending August 31, 1996 and 1997 (see Appendix 1). However, the audit agency’s
agreement with FWS expired before the issuance of its draft report to the State of Texas.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with the FWS, which expired on September 30, 2001.
The FWS did not renew or extend the agreement and at the time of expiration, final audit reports
on several audits had not been issued and the audits were in various stages of the audit and
reporting processes. The audit agency indicated in a September 28, 2001 memorandum that its
supervisors had not reviewed the working papers for the Texas audit to ensure that (1) sufficient,
competent and relevant evidence was obtained, (2) evidential matter contained in the working
papers adequately supported the audit findings in the report, and (3) sound auditing techniques
and judgment were used throughout the audit.

        On September 20, 2001, FWS and the Office of Inspector General (OIG) entered into an
Intra-Departmental Agreement under which FWS requested the OIG to (1) review the work
performed by the audit agency including its working papers, summaries, and draft reports and
(2) issue reports on the findings that were supported by the working papers. Accordingly, our
review was limited to performing the procedures set forth in the Agreement. We did not perform
any additional audit work of the Department’s records, and the limited work performed under
these procedures does not constitute an audit by the OIG in accordance with Generally Accepted
Government Auditing Standards.

       Major issues impacting Texas' administration of the Federal Aid program are presented in
the body of the report and other management issues are presented in Appendix 2.

                                    Results of Review
       The results of our review of the working papers disclosed the following:

       •   The eligibility for reimbursement of costs totaling $279,356 (Federal share $209,517)
           was questioned representing questionable in-kind labor contributions ($191,720), an
           ineligible payment to a nonprofit organization ($76,789), and other ineligible costs
           ($10,847).

       •   The Department did not report revenues of $30,000 received from the sale of an
           easement on property that had been acquired with Federal Aid grant funds.




                                                 2
       •   The Department did not report program income totaling $573,912 generated from
           grant-funded activities.

       •   The Department inappropriately received advance payments on one of its grants and
           earned an estimated $10,186 in interest on these funds.

A. Questioned Costs

        1. In-Kind Contributions-Volunteer Services. The Department claimed costs totaling
$448,657 under its fiscal year 1996 grant for “Aquatic Wild Usage in the Classroom” (AWUIC)
(Grant F-82-E-5), which included costs incurred of $240,447 and in-kind volunteer services of
$208,210 for non-Department personnel. The working papers indicated that $16,490 of the
volunteer services amount was allowable, and questioned the remaining $191,720 which related
to “schoolteacher volunteers.” In addition, the Department did not properly identify the $191,720
as an in-kind contribution on its Financial Status Report and inappropriately received Federal
Aid reimbursement for a portion of the in-kind contribution.

                (a) Ineligible In-Kind Contributions. The Department enlists private and public
schoolteachers to use the AWUIC program to incorporate wildlife-related concepts into their
normal K-12 classroom curricula. The Department provides a 6-hour workshop for the
schoolteachers to become familiar with its approaches and activities, and the schoolteachers can
select from about 80 AWUIC program activities and supplements for use in their classroom.
However, the Department has no enforceable agreement with the schoolteachers and does not
receive information on which schoolteachers actually incorporated AWUIC program activities
into their curricula or the amount of time they spent in the classroom on these activities.

        The amount claimed for in-kind hours was based on a formula developed in 1990 by an
independent public opinion firm. The formula, as applied in fiscal year 1996, included the
following factors: cumulative number of AWUIC program certified schoolteachers (34,183);
percentage of active AWUIC program certified schoolteachers (87 %); percentage of active
schoolteachers using AWUIC techniques (27 %); number of hours spent instructing during the
year (6 hours); and estimated instructor dropout rate (50 %). The resulting computed in-kind
value was $240,090 (24,009 hours at $10 per hour – the rate stipulated in the grant agreement).
(The Department apparently claimed only $191,720 of this amount.) The use of the $191,720 as
an in-kind contribution is questionable for the following reasons:

       •   The schoolteachers did not provide volunteer services because AWUIC related
           instruction was performed as part of their normal teaching efforts.

       •   Since the teachers were not required to report on their AWUIC instruction activities,
           the Department has no information on the accomplishments or effectiveness of these
           instructional activities.




                                                3
       •   The formula used in the computation was at least 6 years old when it was used for
           this grant, and we have no basis for determining whether the computed number of
           volunteer hours was reasonable.

       The working papers questioned the entire $191,720 (Federal share $143,790) related to
the volunteer services of the schoolteachers.

               (b) Federal Aid Reimbursement for Excess In-Kind Contributions. Should FWS
allow the Department to use the volunteer services for matching purposes, FWS would still be
due a refund in the amount of $96,046 because the Department received Federal Aid
reimbursement for a portion of these in-kind services, contrary to OMB Circular A-87.
Attachment B, Section 11.i of the Circular states, “The value of [donated or volunteer] services
is not reimbursable either as a direct or indirect cost. However, the value of donated services
may be used to meet cost sharing or matching requirements in accordance with the provisions of
the common rule.”

       The Department reported net outlays of $448,658 on its Financial Status Report, which
included actual costs of $240,447 and in-kind contributions of $208,210. The Department did not
separately identify the in-kind contribution amount on the Report, as required, and requested
reimbursement of $336,493, or 75 percent of the reported net outlays. As a result, the
Department received Federal Aid reimbursement for in-kind services in the amount of $96,046
(reimbursements of $336,493 minus costs incurred of $240,447 = reimbursements of $96,046 for
in-kind contributions).

        2. Ineligible Contribution. The Department paid $76,789 to Ducks Unlimited for the
Prairie Canada North American Wetlands Conservation Act project and charged this amount to
Grant W-128-R-4. The expenditure was not an approved grant cost and therefore was not
eligible for reimbursement. Therefore, the working papers questioned the $76,789 payment
(Federal share $57,592).

       3. Other Ineligible Costs. The Department charged $7,647 for a rotary mower and
$3,200 for bear traps to Grant W-107-R-21. The grant is for wildlife resource planning and
therefore the costs were not eligible for reimbursement. The working papers showed that the
mower was used for maintenance of wildlife management areas covered under Grant
W-124-M and the bear traps were used to remove nuisance animals, which according to the FWS
Federal Aid Manual Chapter 8.2.B.(2), is not an eligible activity under Federal Aid grants.
Therefore, the working papers questioned the ineligible charges of $10,847 (Federal share
$8,135).

Recommendations

       We recommend that the FWS:

       1. Resolve the $279,356 of questioned costs with the Department.




                                               4
       2. Ensure that the Department establishes and implements controls to ensure that costs
charged to Federal Aid grants are eligible and adequately supported.

Department and U.S. Fish and Wildlife Service Responses

        1. In-Kind Contributions-Volunteer Services. Departmental officials stated that the
use of schoolteacher volunteer in-kind costs for Aquatic Education Grant training has been
discontinued. The officials added that, “In order that there be no question about the costs
charged to Grant F-82-E-5 the Department will make accounting adjustments to current
segments of the grant for the entire amount of the in-kind costs charged to F-82-E-5. The
accounting adjustments will be made according to established procedures for handling
questioned costs.”

       2. Ineligible Contribution. The Department stated that the payment to Ducks
Unlimited was coded to the wrong project code and that accounting adjustments have already
been made by the Department.

      3. Other Ineligible Costs. The Department stated that the items were coded to the
wrong project code and that adjustments to correct the problem had already been made by the
Department.

       The FWS did not provide written comments on the recommendations.

Office of Inspector General Comments

        The Department’s response agreed with the recommendations and stated that appropriate
adjustments had been or will be made. FWS needs to obtain documentation that demonstrates
that the adjustments have been made.

       Since FWS did not provide a written response, we consider the recommendations
unresolved. FWS should address the recommendations as part of the Corrective Action Plan.

B. Revenues from Sale of an Easement

        The Department did not report revenues of $30,000 received from the Wood County
Electric Cooperative Inc. for an easement across the Old Sabine Bottom Wildlife Management
Area (Anderson Tract, acquired with Federal Aid funds) for an electric line easement. The Code
of Federal Regulations [43 CFR 12.71(c)(2)] requires that when a grantee sells real property that
had been acquired with grant funds, it should compensate the awarding agency in the same
percentage of participation as the original purchase. However, the Department did not report
these revenues or provide compensation to the FWS.




                                                5
Recommendations

       We recommend that the FWS:

       1. Resolve the $30,000 of unreported easement sale revenues with the Department.

       2. Ensure that the Department establishes and implements controls to ensure that
revenues from the sale of real property are appropriately identified, recorded, and reported.

Department and U.S. Fish and Wildlife Service Responses

        The Department stated that FWS imposed reporting requirements during the period of the
questioned transaction that led the Department to not report any program income on the
Financial Status Report for Grant W-124-M. The Department further stated that it was required
by FWS to report only costs up to the amount stated in the grant agreement but that it “had costs
well in excess of that amount from which program income would have been deducted to
determine net billable costs.” The Department further stated that, “The Department is willing to
submit an amended Financial Status Report for Grant W124M showing the correct amount of
total costs, the correct amount of program income including the questioned $30,000, and the
correct amount of net billable costs.” The Department added that none of these corrections will
result in any amount being owed to FWS.

       The FWS did not provide written comments on the recommendations.

Office of Inspector General Comments

        The Department’s response included a copy of the final Financial Status Report that
included a notation that the Department had incurred additional costs (over $700,000) that were
not included in the Report. However, the response did not include documentation supporting the
additional costs. FWS needs to determine whether it will allow the Department to submit an
amended Financial Status Report and if so, verify any additional reported costs.

       Since FWS did not provide a written response, we consider the recommendations
unresolved. FWS should address the recommendations as part of the Corrective Action Plan.

C.     Program Income

        The working papers indicated that the Department received program income totaling
$573,912 that was not reported on the Financial Status Reports. The Code of Federal
Regulations [43 CFR 12.65(b)] defines program income as "gross income received by the
grantee or subgrantee directly generated by a grant supported activity, or earned only as a result
of the grant agreement during the grant period," and Part 12.65(g)(1) states "Ordinarily program
income shall be deducted from total allowable costs to determine the net allowable costs." In
addition, Part 12.65(g)(2) states “When authorized, program income may be added to the funds
committed to the grant agreement by the Federal agency and the grantee.” This method is
referred to as the additive method. The working papers indicated, however, that the Department's


                                                 6
system and related controls were not adequate to ensure that program income was properly
reported under the applicable grants, as follows:

        1. Sea Center. The Department received income totaling $121,958 from gift shop sales
($116,958) and conference room rental sales ($5,000) at the Sea Center. Although the
Department identified grant related revenues of $42,881 in its Grant Performance Report, it did
not report the receipt and use of this income on its Financial Status Report. The grant agreement
specified the additive method of accounting for program income and indicated that the Sea
Center's operation and maintenance costs were supported under Grant F-91-D-1.

        2. Fisheries Center. The Department received income totaling $406,006 from gate
receipts ($207,466), gift shop income ($125,143), vending machine income ($13,366), and
Kidfish program revenue ($60,031) at the Fisheries Center. The Department did not report the
receipt and use of this income on the Financial Status Report. The grant agreement specified the
additive method of accounting for program income and indicated that the Fisheries Center
operation and maintenance costs were supported under Grant F-90-D-1.

        3. Trout Sales. The Department used Federal Aid funds and assets under Grants
F-101-D-2 and F-101-D-3 to raise and purchase rainbow trout and maintain and distribute the
trout to state controlled waters and non-state controlled local and cooperative waters. The
Department received revenue of $24,131 and $18,425, in fiscal years 1996 and 1997
respectively, from trout sales to non-state entities but did not report the revenue as program
income.

        4. Timber Sales. The Department received $3,392 from the Wood County Electric
Cooperative Inc. for timber harvest from an easement on lands (Anderson tract) acquired with
Federal Aid funds in the Old Sabine Wildlife Management Area. The Department did not report
these revenues as program income on its wildlife management area grant (W-124-M).

Recommendations

       We recommend that the FWS:

       1. Resolve the $573,912 of unreported program income with the Department.

      2. Ensure that the Department establishes and implements controls to ensure that
program income is appropriately identified, recorded, and reported.

Department and U.S. Fish and Wildlife Service Responses

        1. Sea Center. The Department stated that the figures in the report are not correct and
that the actual amounts received from gift shop sales and conference room rental were $109,999
and $7,669, respectively. The Department provided documentation that shows that deducting the
cost of merchandise sold and business expenses from the gross receipts leaves net program
income of $15,514 from these activities and that this amount was reported on the Financial



                                                7
Status Report, using the additive method. The Department also provided documentation
indicating this amount was spent at the Center.

       2. Fisheries Center. The Department stated that the gate receipts ($207,466), gift shop
income ($125,143), and the vending machine income ($13,366), which totaled $345,975, were
properly reported on the Financial Status Report using the additive method. The Department
added that the income was used to support the Fisheries Center operation.

        Regarding the remaining $60,031, the Department stated that these funds were actually
donations to the Parks and Wildlife Foundation collected during a Kidfish event held at the
Center and that the Department did not receive any rental income or other fees from the
Foundation for holding the event at the Center. The Department further stated, “donations to an
entity outside of the Department are not program income just because the event was held at the
Fisheries Center.”

        3. Trout Sales. The Department stated that it has already made accounting adjustments
for the amounts stated in the report and for all other revenue from trout sales in subsequent years
and that the income has since been reported on amended Financial Status reports. The
Department added that the trout activity has been removed from the grant and is now a state-
funded project.

        4. Timber Sales. The Department stated that the timber sales revenue is related to the
sale of easement revenue in Finding B and that resolution will be handled the same way.

       The FWS did not provide written comments on the recommendations.

Office of Inspector General Comments

       Our comments regarding the Department’s response are as follows:

       1. Sea Center. We were unable to reconcile the unreported income amounts shown in
the audit agency’s working papers to the amounts shown in the Department’s response.
However, the Department provided documentation indicating that it had reported the net income
from these activities, using the additive method. The Department’s response also indicated that it
had used this net income to support Sea Center activities. FWS needs to verify that this income
has been accounted for properly.

        2. Fisheries Center. The Department provided documentation indicating that it had
reported the net income from gate receipts, vending machines, and the gift shop on the Financial
Status Report and used this income to support Fisheries Center operations. FWS needs to verify
that this income has been accounted for properly and that the income related to the Kidfish event
was actually contributions to the Parks and Wildlife Foundation.

       3. Trout Sales. The Department provided documentation indicating that these revenues
were included in the amount reported on the September 2002 Financial Status Report for Grant



                                                 8
F-101-D-4. FWS needs to verify that the adjustment has been made and includes the income
identified in the report.

   4. Timber Sales. FWS needs to address this issue as part of the resolution of
Finding B.

       Since FWS did not provide a written response, we consider the recommendations
unresolved. FWS should address these recommendations as part of the Corrective Action Plan.

D. Interest on Advance Payments

        The working papers concluded that the Department earned an estimated $10,186 in
interest income on advance payments on Grant F-91-D-1. The Department is required to request
payments for Federal Aid in accordance with the reimbursement method described in the Code
of Federal Regulations [43 CFR Part 12.61(d)]. However, the Department did not always comply
with the requirement and drew down funds before it was obligated to pay the vendor. This
occurred because at times, the Department billed certain miscellaneous charges before the costs
had been vouchered through the grant accounting system’s accounts payable module. In one
instance, the Department received Federal Aid reimbursement for construction services 70 days
before paying the vendor invoice. Such payments would be considered advances since the
Department did not use the reimbursements to pay the related obligations timely. Interest earned
on grant advances is subject to 43 CFR Part 12.61(i), which requires grantees to promptly, but at
least quarterly, remit interest earned on grant advances to FWS.

Recommendations

       We recommend that the FWS:

       1. Resolve the $10,186 of interest income with the Department.

       2. Ensure that the Department establishes and implements controls to ensure that
Federal Aid reimbursements are made in accordance with applicable criteria.

Department and U.S. Fish and Wildlife Service Responses

        The Department stated that it did not agree that there was any interest income due. The
Department stated that they contracted with another organization to construct the Sea Center
Texas and that when presented with invoices, Departmental employees would certify that it was
proper to pay the invoices in accordance with State of Texas laws and purchasing regulations.
The Department added that, “At that point, according to generally accepted accounting
principles, a cost is incurred. When a vendor is actually paid is not relevant to incurring a cost.”
 The Department further stated that the procedures they followed were approved by FWS. The
Department also stated that they do not consider the reimbursements under Grant F-91-D to be
“advances” and that interest was not due.

       The FWS did not provide written comments on the recommendations.


                                                  9
Office of Inspector General Comments

        In support of its position, the Department cited an FWS letter that stated, “If the payment
of grant expenses is imminent, you may request Federal Aid payment prior to the disbursement
of State funds.” The drawdowns referred to in the report included some for which payment was
not imminent, including one of over $333,000, which was not used to pay the vendor until 70
days later.

       Since the FWS did not provide a written response, we consider the recommendations
unresolved. FWS should address the recommendations as part of the Corrective Action Plan.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments regarding unresolved and unimplemented recommendations by June 6, 2003.

         This advisory report is intended solely for the use of grant officials of the U.S. Fish and
Wildlife Service, and is not intended for, and should not be used by, anyone who is not cognizant
of the procedures that were applied and who agreed to the sufficiency of those procedures.

       If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator, at (703) 487-8011.


cc:    Regional Director, Region 2
       U.S. Fish and Wildlife Service




                                                10
                                                                                                APPENDIX 1


                     TEXAS DEPARTMENT OF GAME AND FISH
                SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
                        FOR FISCAL YEARS 1996 AND 19971

                                                                                   Questioned
          Grant Number             Grant Budget             Costs Billed          Federal Share
         CWA-11-1                      $1,957,000
         CWA-12-1                         250,000
         CWA-13-1                         583,730                   $3,500
         CWA-6-1                          101,000                  101,000
         CWA-7-1                          202,000
         CWA-8-1                          156,500                  156,500
         CWA-9-1                          402,000
         ESEC-2-2                          47,600                   47,445
         ESEC-3-1                         287,667                  287,667
         ESEC-6-10                        839,042
         ESEC-6-8                         242,933                  242,933
         ESEC-6-9                         393,720                  370,068
         ESEC-7                           467,889                  467,889
         FW-15-S-1                         26,667                   22,197
         FW-15-S-2                        166,000                   29,025
         FW-15-W-1                         26,667                   22,197
         FW-15-W-2                        116,000                   29,025
         C-4                              315,000                  315,000
         HIP-1                            405,000                    4,321
         IPA1-3                            50,000                   48,895
         IPA1-4                            50,000                   44,035
         SWTSU-2                            4,500                    4,500
         F-100-D-1                        686,667
         F-101-D-1                         95,464                   95,464
         F-101-D-2                        184,256                  184,256
         F-101-D-3                        628,224                  318,919
         F-102-D-1                        574,608                  574,608
         F-103-D-1                        383,262                  238,056
         F-105-D-1                        533,334                  253,334
         F-106-D-1                      1,064,001
         F-107-D-1                        391,382
         F-22-D-26                        203,732                  167,969
         F-22-D-27                        133,336                  133,336
         F-22-D-28                        133,336                   73,456
         F-30-R-20                      2,200,000                2,200,000




1 The amounts shown for grant numbers, grant budgets, and costs billed were obtained from a summary schedule in
the audit agency’s working papers. We did not verify the accuracy of these numbers.



                                                      11
                                                                APPENDIX 1


         TEXAS DEPARTMENT OF GAME AND FISH
    SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
            FOR FISCAL YEARS 1996 AND 1997


                                                       Questioned
Grant Number   Grant Budget         Costs Billed      Federal Share
F-30-R-21            637,572                637,572
F-30-R-22          1,397,500              1,397,500
F-31-R-21            114,880                114,880
F-30-R-22            120,000                120,000
F-30-R-23            120,000                117,952
F-34-M-12            900,000                900,000
F-34-M-13            522,040                522,040
F-34-M-14          1,397,500                915,289
F-36-R-10            301,875                301,875
F-36-R-11            215,748                215,748
F-36-R-12            187,664                161,484
F-37-TA-6            695,708                695,708
F-37-TA-7            518,280                518,280
F-37-TA-8          1,124,000              1,124,000
F-59-D-6             182,000                182,000
F-59-D-7             172,000                162,789
F-59-D-8             182,000                106,629
F-82-E-4             336,000                336,000
F-82-E-5             466,668                448,657         $143,790
F-82-E-6             370,000                287,454
F-82-E-7             360,000
F-85-D-1             740,556                740,556
F-87-M-2             691,010                504,770
F-89-D-1             571,333                571,333
F-90-D-1          17,333,333             15,424,338
F-90-D-2           2,139,527                261,989
F-90-DB-1             10,000                 10,000
F-90-DB-2             10,001
F-91-D-1          16,621,056             16,621,055
F-91-D-2             623,872
F-91-DB-1            447,612               408,878
F-92-D-2             227,500               227,500
F-92-D-3             432,184               432,184
F-92-D-4             838,000               245,827
F-93-D-2              79,260                79,260




                               12
                                                                 APPENDIX 1


         TEXAS DEPARTMENT OF GAME AND FISH
    SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
            FOR FISCAL YEARS 1996 AND 1997


                                                        Questioned
Grant Number   Grant Budget         Costs Billed       Federal Share
F-93-D-3             126,260                126,260
F-93-D-4             279,800                  88,158
F-94-D-2              22,000                  22,000
F-94-D-3              22,000                      91
F-95-D-2             175,184                175,184
F-95-D-3             262,608                262,608
F-95-D-4             524,584                270,954
F-96-D-2              27,000                  27,000
F-96-D-3              62,360                  62,360
F-96-D-4             212,156                  81,632
F-97-R-2              20,000                  20,000
F-97-R-3              20,000                  20,000
F-97-R-4              20,000                  20,000
F-98-D-2              33,000                  33,000
F-98-D-3              91,136                  91,136
F-98-D-4             348,816                149,840
F-99-D-1             243,275                198,116
W-017-R-23         3,500,000              3,500,000
W-017-R-24           100,000
W-104-S-23           600,000                600,000
W-104-S-24           600,000                600,000
W-104-S-25           400,000                400,000
W-104-S-26           100,000
W-107-R-21         3,320,000              3,320,000              8,135
W-107-R-22         3,000,000              3,000,000
W-122-S-6            532,000                383,346
W-123-D-5          1,568,000              1,150,884
W-124-M-5          3,920,000              3,760,560
W-124-M-6          2,000,000              2,000,000
W-124-M-7          2,720,000              2,720,000
W-124-M-8          2,000,000              2,000,000
W-125-R-6            260,000                260,000
W-125-R-7            460,000                460,000
W-125-R-8            404,000                404,000
W-125-R-9            100,000                100,000




                               13
                                                                APPENDIX 1


         TEXAS DEPARTMENT OF GAME AND FISH
    SCHEDULE OF GRANT COSTS AND QUESTIONED COSTS
            FOR FISCAL YEARS 1996 AND 1997


                                                       Questioned
Grant Number   Grant Budget         Costs Billed      Federal Share
W-126-R-3            568,000                568,000
W-126-R-4            600,000                518,983
W-126-R-5          1,000,000                521,781
W-126-R-6          1,000,000                183,585
W-127-R-3          2,054,000              1,665,756
W-127-R-4          1,400,000                509,455
W-127-R-5          1,240,000                874,626
W-127-R-6          1,000,000                286,722
W-128-R-3            740,000                740,000
W-128-R-4            800,000                776,862            57,592
W-128-R-5            600,000                598,682
W-128-R-6            100,000
W-129-M-5          1,700,000              1,330,009
W-129-M-6          1,500,000                912,457
W-129-M-7          1,800,000              1,370,229
W-129-M-8            100,000
W-130-L-1          7,157,581              6,631,270
W-130-L-2            882,667                455,641
W-131-S-1          1,200,000              1,040,617
W-131-S-2          1,400,000              1,116,794
W-131-S-3            100,000
W-98-D-26            200,000               200,000
    Total       $120,605,623            $97,837,740         $209,517




                               14
                                                                                     APPENDIX 2


                              MANAGEMENT ISSUES
        The working papers identified the following management issue regarding asset
management that the Texas Parks and Wildlife Department and the Fish and Wildlife Service
need to address. The working papers also included comments on the status of the Department’s
cost accounting system.


A. Asset Management System

       The working papers stated that the Department's asset management system was adequate
to ensure compliance with Federal regulations over the use and disposition of assets acquired
with Federal Aid funds or license revenues. However, the working papers identified the
following issues:

       •   The Department did not have a mechanism that allows site personnel to readily
           identify government-furnished or purchased equipment.

       •   Assets were identified in the inventory system with personnel, and incorrectly
           appeared to have been transferred to another site if the identified person relocated to
           another site.

       •   Assets were missing inventory tags and were not promptly tagged when acquired.

       •   Transfer slips were not always prepared for assets transferred between sites.

B. Cost Accounting System

       The working papers concluded that the Department’s cost accounting system in effect
during the audit period (fiscal years 1996 and 1997) was generally adequate (with some
exceptions) for recording and accumulating project costs. The working papers also noted,
however, that the system was replaced in fiscal year 1998 but was not reviewed by the auditors
because the system was not completely functioning and was largely undocumented at the time of
the audit.
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
